NO._____________

IN THE SUPREME COURT OF THE UNITED STATES

LUIS LEON PINA and
SAUL ZAMORA DE ANDA,
Petitioners,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the Fifth Circuit

CERTIFICATE OF SERVICE
KATHRYN SHEPHARD, appointed under the Criminal Justice Act, certifies that,
pursuant to Rule 29.5, she served the preceding Petition for Writ of Certiorari and the
accompanying Motion for Leave to Proceed In Forma Pauperis on counsel for the
Respondent (1) by mailing, on January 8, 2021, a copy of these documents (via first-class
United States mail, postage prepaid) to:
Acting Solicitor General Jeffrey B. Wall
Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530
and also (2) by sending, on January 8, 2021, the said documents via electronic mail to the
Office of the Solicitor General at the following e-mail address:
SupremeCtBriefs@USDOJ.gov. She certifies that all parties required to be served have
been served.

KATHRYN SHEPHARD

